No. 19-46

IN THE

Supreme Court of the United States

 

UNITED STATES PATENT AND TRADEMARK OFFICE, ET AL.,

Petitioners,
v.

BOOKING.COM B.V.,

Respondent.

 

CERTIFICATE OF SERVICE

 

Thereby certify that I am a member in good standing of the bar of this Court and
that on this 19th day of February, 2020, I caused three copies of the Brief of
Salesforce.com, Inc., The Home Depot, Inc. and BA Sports Nutrition, LLC as Amici
Curiae in Support of Respondent to be served by third-party commercial carrier on the
counsel identified below, and caused an electronic version to be transmitted to the
counsel identified below, pursuant to Rule 29.5 of the Rules of this Court. All parties
required to be served have been served.

Noel J. Francisco . Lisa S. Blatt

Solicitor General WILLIAMS & CONNOLLY LLP
UNITED STATES DEPARTMENT OF JUSTICE 725 12th Street, NW

950 Pennsylvania Avenue, NW Washington, DC 20005
Washington, DC 20530 (202) 434-5050

(202) 514-2217 Iblatt@we.com

SupremeCtBriefs@usdoj.gov
Jonathan E, Moskin
Counsel for Petitioner FOoLey & LARDNER LLP
90 Park Avenue
New York, NY 10016
(212) 682-7474
jmoskin@foley.com

for Respondent

   
 
    

Joshua M, Wesneski
